TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Tax Forms and Publications Were Generally
                Obtainable, but the Time Required to Acquire
                         Forms Could Be Reduced



                                      September 15, 2008

                              Reference Number: 2008-30-166




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               September 15, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Tax Forms and Publications Were Generally
                               Obtainable, but the Time Required to Acquire Forms Could Be
                               Reduced (Audit # 200830043)

 This report presents the results of our review to determine whether paper tax forms and
 publications needed to prepare tax returns were readily available to taxpayers. This audit was
 not included in our Fiscal Year 2008 audit plan but was initiated as a discretionary audit based
 on observations made at a Taxpayer Assistance Center (Center).1

 Impact on the Taxpayer
 Despite the Internal Revenue Service’s (IRS) success at encouraging taxpayers to file
 electronically, a significant number of taxpayers continue to file paper tax returns. Many
 taxpayers who file on paper, because of preference or necessity, choose to obtain forms and
 related publications from an IRS Center or from certain public libraries and post offices. Access
 to these tax forms and publications plays an important part in compliance with tax laws.
 Taxpayers should be able to obtain the needed forms as quickly as possible with the least amount
 of difficulty.




 1
  These Centers provide taxpayers with face-to-face assistance in interpreting tax laws and regulations, preparing
 certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services designed to
 minimize the burden on taxpayers in satisfying their tax obligations. As part of these services, the Centers maintain
 an inventory of many IRS tax products, including forms, instructions, and publications.
                  Tax Forms and Publications Were Generally Obtainable, but the
                       Time Required to Acquire Forms Could Be Reduced




Synopsis
The IRS Media and Publications function Post of Duty Program distributes tax forms,
instructions, and publications to the 401 Centers nationwide. This review focused primarily on
the availability of tax forms and publications in 44 of the Centers.
We were generally successful in obtaining tax forms at the Centers, via the Internet, and by
telephone. We were also able to obtain tax forms to a more limited extent by visiting libraries
and post offices.
In addition to determining whether forms and publications could be obtained at the 44 Centers,
we determined the time required to obtain the tax forms. Our average wait time at the Centers
was just over 33 minutes. In more than one-half of our visits (24 of 44), we waited 30 or more
minutes, and in 20 percent of our visits (9 of 44), we waited 50 or more minutes. In our opinion,
at least two factors contributed to the excessive wait time for tax forms.
•   Some mandatory forms2 were not available directly to taxpayers (i.e., taxpayers had to
    wait in line and receive assistance from an IRS representative). We selected a sample of
    31 mandatory tax forms to obtain at each Center included in our review. At each Center,
    some of these forms were available with no assistance from IRS employees. However, we
    had to wait in line to obtain some of the mandatory forms and publications in our sample at
    each Center. If all mandatory forms had been available through self-service, our wait times
    would have been reduced.
•   “Tax-forms-only” lines were available at only 16 (36 percent) of the 44 Centers we visited.
    Customers in Centers with a tax-forms-only line waited an average of 10 minutes fewer than
    those without a tax-forms-only line. Thus, in Centers that did have a tax-forms-only line,
    auditors waited an average of 27 minutes while in those without a tax-forms-only line, they
    waited an average of 37 minutes.
The IRS has developed a new system, the Facilitated Self-Assistance Research Project (FSRP),
that should allow taxpayers ready access to more forms and publications at its Centers. The
FSRP includes computers through which taxpayers can be guided on how to obtain needed
information. The computers provide taxpayers with access to the IRS web site (IRS.gov) where
they are able–among many other things–to obtain forms, instructions, and publications. We
tested the effectiveness of this new system in providing access to tax forms in one Center. Once
we gained access to the system, we easily found and downloaded the needed forms. However,
we found that the processes for making taxpayers aware of the system, providing them with
access to the system, and allowing them to retrieve downloaded documents need improvement.


2
 Mandatory forms are tax forms that IRS Centers are required to keep in stock. When we began this review, there
were 77 forms on the required list.
                                                                                                                  2
                     Tax Forms and Publications Were Generally Obtainable, but the
                          Time Required to Acquire Forms Could Be Reduced




Recommendations
We recommended that the Commissioner, Wage and Investment Division, 1) ensure that the
public can obtain all mandatory tax forms without having to interact with a customer service
representative at the Centers, 2) ensure that prior to closing for lunch, Centers assist taxpayers
needing only forms and publications, and 3) evaluate the present FSRP procedures to ensure that
taxpayers visiting the applicable sites are readily made aware of the system and can use it
without having to wait in line to interact with an IRS employee.

Response
IRS management generally agreed with our recommendations. Specifically, the IRS completed
an assessment during the 2008 Filing Season3 and installed additional forms racks at selected
Centers. The IRS also agreed to send a reminder to employees that they should follow the
Internal Revenue Manual requirement to ask taxpayers if they need forms prior to closing a
Center for lunch. Finally, the IRS agreed to evaluate the present FSRP procedures to ensure that
taxpayers visiting the applicable sites are readily made aware of the system. The IRS did not
agree to ensure that taxpayers would be able to use the system without having to wait in line to
receive an access code or to retrieve a printed form or publication but did agree to work to
minimize taxpayer wait time. Management’s complete response to the draft report is included as
Appendix IV.

Office of Audit Comment
Although we would like to see taxpayer wait time reduced as much as possible, we also
understand the need for proper system security measures. We agree with the IRS’ corrective
action as long as taxpayer wait time is considered and minimized as much as possible when
developing the FSRP procedures.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-8510.




3
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                                        3
                      Tax Forms and Publications Were Generally Obtainable, but the
                           Time Required to Acquire Forms Could Be Reduced




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          Tax Forms and Publications Needed to Complete Tax Returns
          Were Generally Obtainable...........................................................................Page 2
          The Time Required to Obtain Tax Forms and Publications at
          Taxpayer Assistance Centers Could Be Reduced ........................................Page 3
                    Recommendation 1:..........................................................Page 4

                    Recommendation 2:..........................................................Page 5

          Better Use of the Facilitated Self-Assistance Research Project
          Could Expedite the Delivery of Forms .........................................................Page 5
                    Recommendation 3:..........................................................Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
          Appendix IV – Management’s Response to the Draft Report ......................Page 11
       Tax Forms and Publications Were Generally Obtainable, but the
            Time Required to Acquire Forms Could Be Reduced




                      Abbreviations

FSRP            Facilitated Self-Assistance Research Project
IRS             Internal Revenue Service
                   Tax Forms and Publications Were Generally Obtainable, but the
                        Time Required to Acquire Forms Could Be Reduced




                                             Background

Despite the Internal Revenue Service’s (IRS) success at encouraging taxpayers to file
electronically, a significant number of taxpayers continue to file paper tax returns. During 2008,
the IRS had received more than 58 million paper returns as of June. On an annual basis, the IRS
publishes tax forms, instructions, and publications that taxpayers need to file tax returns and
comply with Federal tax laws.
Taxpayers can obtain paper tax forms and related publications in a variety of ways. The IRS
mailed tax forms directly to approximately 6 million taxpayer residences this year. In addition,
taxpayers can 1) order or download needed forms and publications through the IRS Internet site
(IRS.gov), or 2) order them from the IRS over the telephone. However, many taxpayers, because
of preference or necessity, choose to obtain forms and related publications from one of the IRS
Taxpayer Assistance Centers (Centers)1 or from certain public libraries and post offices.
The IRS Media and Publications function Post of Duty Program distributes tax forms,
instructions, and publications to the 401 Centers. The Centers are located in all 50 States within
the United States.
This review focused primarily on the availability of tax forms and publications in 44 of the
401 nationwide Centers during the period February through May 2008. We also performed
limited testing of the IRS’ delivery of forms ordered by telephone and via the Internet and tested
the availability of forms at some libraries and post offices. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1
 These Centers provide taxpayers with face-to-face assistance in interpreting tax laws and regulations, preparing
certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services designed to
minimize the burden on taxpayers in satisfying their tax obligations. As part of these services, the Centers maintain
an inventory of many IRS tax products, including forms, instructions, and publications.
                                                                                                              Page 1
                     Tax Forms and Publications Were Generally Obtainable, but the
                          Time Required to Acquire Forms Could Be Reduced




                                        Results of Review

Tax Forms and Publications Needed to Complete Tax Returns Were
Generally Obtainable
We were generally successful in obtaining tax forms at the IRS Centers, via the Internet, and by
telephone. We were also able to obtain tax forms to a more limited extent by visiting libraries
and post offices.
The IRS has a list of 77 tax forms and publications that the Centers are required to keep in stock
because they are the forms and publications most frequently used or requested by taxpayers
(mandatory forms and publications). The IRS also has a list of 152 additional forms and
publications that may be stocked as local IRS management deems necessary. We visited 44 of
the 401 Centers and selected a sample of 31 mandatory forms and publications at each site. We
were able to obtain 93 percent of the tax forms and publications we requested at the Centers.
However, four common documents were unavailable:
       •   IRS Guide to Free Tax Services (Publication 910).
       •   How To Depreciate Property (Publication 946).
       •   Quick and Easy Access to IRS Tax Help and Tax Products (Publication 2053A).
       •   Health Savings Accounts (HSAs) (Form 8889).
The IRS has developed a new system, the Facilitated Self-Assistance Research Project (FSRP),
that should allow taxpayers ready access to more forms and publications at its Centers. The
FSRP includes computers through which taxpayers can be guided on how to obtain needed
information. The computers provide taxpayers with access to the IRS web site where they are
able–among many other things–to obtain forms, instructions, and publications. We believe that
this system will benefit taxpayers once it becomes available in more Centers.
We also ordered tax forms via the Internet and over the telephone using the IRS toll-free
telephone number. In 6 instances, ordering 10 different forms via the Internet took an average
of only 7 minutes, and we received the forms ordered in an average of 5 calendar days. The
6 telephone orders took an average of only 10 minutes to place (although 1 call took 26 minutes).
We received the forms for five of the six orders. The 5 orders took an average of 9 calendar days
for receipt.2



2
    We were unable to determine why the other telephone order did not arrive.
                                                                                            Page 2
                  Tax Forms and Publications Were Generally Obtainable, but the
                       Time Required to Acquire Forms Could Be Reduced



Taxpayers have other significant options available to obtain forms. The IRS informed us that
11,537 (70 percent) of the 16,543 public libraries nationwide also voluntarily stock tax forms.3
We visited 39 libraries stocking tax forms and found an average of 23 of the 77 forms on the
Centers’ mandatory list were available, and 23 of 152 forms on the Centers’ optional list were
available.
Another choice available to taxpayers needing forms is the United States Post Office. The IRS
informed us that it sent tax forms to 10,426 of the more than 27,000 United States Post Offices
nationwide.4 Seven of the 35 post offices we visited carried at least some tax forms.

The Time Required to Obtain Tax Forms and Publications at Taxpayer
Assistance Centers Could Be Reduced
In addition to determining whether forms and publications could be obtained, we visited the
44 Centers to determine the time needed to obtain the tax forms. Our average wait time at the
Centers was just over
33 minutes. In more than                    Wait Times at Taxpayer Assistance Centers
one-half of our visits
                                                       25%
(24 of 44), we waited                                            20%
30 or more minutes, and                       18%
                                                                          14%                 14%
in 20 percent of our visits
(9 of 44), we waited 50 or                                                           7%
                                      2%
more minutes. In 1 of our
visits, we waited a total of
                                     Fewer   10 to 19 20 to 29 30 to 39 40 to 49 50 to 59     60 or
75 minutes.5 At this                than 10  Minutes  Minutes   Minutes Minutes   Minutes     More
Center, we were asked to           Minutes                                                  Minutes
leave and return after the
IRS employees took their           Source: Our analysis of data gathered during visits to Centers.
lunch. Taxpayers at this
Center who arrived before lunch were not served if their wait extended into the time the Center
closed for lunch. No effort was made by IRS employees before leaving for lunch to
accommodate those taxpayers who were present just to obtain forms, and these taxpayers were
not assured of their same places in line when the Center reopened after lunch.
Part of the IRS mission is to provide taxpayers with top-quality service, which includes allowing
taxpayers to obtain the forms necessary to meet their tax obligations. Taxpayers should be able
to obtain the needed forms as quickly as possible with the least amount of difficulty. In our
opinion, at least two factors contributed to the excessive wait time for tax forms.


3
  The number of libraries nationwide was obtained from the American Library Association.
4
  The number of post offices was obtained from the United States Postal Service.
5
  The auditor waited 30 minutes before and 45 minutes after a 1-hour lunch.
                                                                                              Page 3
                Tax Forms and Publications Were Generally Obtainable, but the
                     Time Required to Acquire Forms Could Be Reduced



•   Some mandatory forms were not available directly to taxpayers (i.e., taxpayers had to wait in
    line and receive assistance from
    an IRS representative). As                      Examples of Forms Cabinets
    mentioned previously, we
    selected a sample of
    31 mandatory tax forms to
    obtain at each Center included
    in our review. At each Center,
    some of these forms were
    available with no assistance
    from IRS employees. However,
    we had to wait in line to obtain
    some of the mandatory forms
    and publications in our sample
    at each Center. If all mandatory
    forms had been available              Source: Dietrich-Post Company.
    through self-service, our wait
    times would have been reduced.
    Although space is limited in many Centers, forms cabinets such as those shown above could
    provide forms using only minimal space and without assistance from IRS employees.
•   “Tax-forms-only” lines were available at only 16 (36 percent) of the 44 Centers we visited.
    Customers in Centers with a tax-forms-only line waited an average of 10 minutes fewer than
    those in Centers without a tax-forms-only line. Thus, in Centers that did have a
    tax-forms-only line, auditors waited an average of 27 minutes while in those without a
    tax-forms-only line, they waited an average of 37 minutes.
Taxpayer wait times at the Centers could be significantly reduced by making all mandatory tax
forms available through self-service and by providing a tax-forms-only line to obtain other forms
and publications.

Recommendations
The Commissioner, Wage and Investment Division should ensure that:
Recommendation 1: The public can obtain all mandatory tax forms without having to
interact with a customer service representative at the Centers. Where possible, a tax-forms-only
line should be in place to reduce the wait time for taxpayers who visit the Centers to obtain a tax
form(s) and/or publication(s).




                                                                                             Page 4
                     Tax Forms and Publications Were Generally Obtainable, but the
                          Time Required to Acquire Forms Could Be Reduced



            Management’s Response: IRS management agreed with this recommendation.
            They completed an assessment during the 2008 Filing Season6 and installed additional
            forms racks for selected Centers. In addition, they have already placed tax-forms-only
            lines in those Centers where possible. Because this process is not available in all
            Centers, they are using a Queuing Traffic Management System for priority gating of
            taxpayers requesting only forms and publications, which reduces wait time.
Recommendation 2: Centers closing for lunch assist taxpayers needing only forms and
publications, prior to closing.
            Management’s Response: IRS management agreed with this recommendation.
            They currently have a process in place to serve taxpayers visiting Centers for forms
            only. The hours of operation and Center closing procedures are outlined in the Internal
            Revenue Manual and state that prior to closing the Center, employees should solicit
            taxpayers for routine payments and forms. Management will send a reminder to
            employees to communicate these requirements.

Better Use of the Facilitated Self-Assistance Research Project Could
Expedite Delivery of Forms
The FSRP, a system currently provided in 15 Centers nationwide, includes computers through
which taxpayers can be guided on how to acquire needed information. The computers provide
taxpayers with access to the IRS web site where they are able–among many other things–to
obtain forms, instructions, and publications.
We tested the effectiveness of this new system in providing access to tax forms in one Center.
Once we gained access to the system, we easily found and downloaded the needed forms.
However, the processes for making taxpayers aware of the system, providing them with access to
the system, and allowing them to retrieve downloaded documents need improvement.
At the Center we visited, signs to inform taxpayers about the availability of the new system were
not placed in the entryway or other locations where taxpayers would readily notice them. The
signs were actually blocked from view by taxpayers standing in line. Although one of the
objectives of the system is to eliminate the need for one-on-one contact with an IRS employee,
taxpayers were required to see an IRS employee to gain an access code and then see an IRS
employee again to obtain copies of the forms they had downloaded.7 As a result, during our visit
to this Center, it took 30 minutes to obtain the forms we needed when it could have taken
significantly less time.
The IRS has initiated efforts to evaluate the effectiveness of the FSRP through end-user surveys,
but these surveys did not begin until March 2008 and did not encompass the entire filing season.

6
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
7
    A sign and pamphlets at the Center indicated that taxpayers could “go to the front of the line.”
                                                                                                              Page 5
                Tax Forms and Publications Were Generally Obtainable, but the
                     Time Required to Acquire Forms Could Be Reduced



The IRS believed that assessing the system without data from an entire filing season could skew
the results and decided to gather data for an entire filing season before making any changes or
enhancements to the FSRP.

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should evaluate the
present FSRP procedures to ensure that taxpayers visiting the applicable sites are readily made
aware of the system and can use it without having to wait in line to interact with an IRS
employee. For example, 1) signs should be placed at the entrance or in other places where
taxpayers can immediately see them before getting in line, 2) taxpayers should be allowed access
to the system without having to get a code from an IRS employee, and 3) printers should be
placed near the system so that taxpayers can retrieve printed forms and publications without
recontacting an IRS employee.
        Management’s Response: IRS management partially agreed with this
        recommendation. They agreed to evaluate the present FSRP procedures to ensure that
        taxpayers visiting the applicable sites are readily made aware of the system and that
        FSRP signs are visible to taxpayers as they enter the Centers.
        Management did not agree to ensure that taxpayers would be able to use the system
        without having to wait in line to interact with an IRS employee. They will work to
        minimize taxpayer wait time. However, taxpayers will still need to receive a customer
        access code from an IRS employee because the code tracks valuable research data
        without identifying individual taxpayers. Management also did not agree to place
        printers near the system so that taxpayers could retrieve printed forms and publications.
        Printers are currently located in secure locations to eliminate inadvertent disclosure of
        taxpayer information that could occur through the printing of electronically filed returns
        with personally identifiable information. As they develop the final FSRP procedures,
        management will review printing procedures to ensure that security and disclosure
        issues are balanced with taxpayer access.
        Office of Audit Comment: Although we would like to see taxpayer wait time
        reduced as much as possible, we also understand the need for proper system security
        measures. We agree with the IRS’ corrective action as long as taxpayer wait time is
        considered and minimized as much as possible when developing the FSRP procedures.




                                                                                            Page 6
                   Tax Forms and Publications Were Generally Obtainable, but the
                        Time Required to Acquire Forms Could Be Reduced



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of the audit was to determine whether paper tax forms and publications
needed to prepare tax returns were readily available at the IRS Taxpayer Assistance Centers
(Centers)1 and through other sources. To accomplish the objective, we:
I.       Selected a judgmental sample of 44 of the 401 Centers where there was a Treasury
         Inspector General for Audit office nearby.2
II.      Visited the IRS Centers selected in Step I. and determined the hours of operation, the
         time needed to obtain tax forms (total visit), and whether:
         A. The location was open during lunch.
         B. The most commonly used tax forms and publications (mandatory stock) were
            available without interaction with an IRS customer service representative. If not, we
            picked, at random, a statistically valid sample of 31 of the 77 mandatory forms and
            asked a customer service representative for the forms.3
         C. There was a separate line for specifically obtaining tax forms that were not readily
            available.
         D. If the customer service representative was leaving for lunch, he or she offered to give
            forms to taxpayers who were there only for forms.
III.     Visited judgmental samples of 39 local libraries and 35 post offices near Treasury
         Inspector General for Tax Administration posts of duty to determine:4


1
  These Centers provide taxpayers with face-to-face assistance in interpreting tax laws and regulations, preparing
certain tax returns, resolving inquiries on taxpayer accounts, and providing various other services designed to
minimize the burden on taxpayers in satisfying their tax obligations. As part of these services, the Centers maintain
an inventory of many IRS tax products, including forms, instructions, and publications.
2
  We chose a judgment sample because we were not going to project our results.
3
  At the start of this audit, each Center was required to have 77 “mandatory” forms available for taxpayers. We
selected a statistical sample of 31 from this population. The sample was selected using a precision rate of
+10 percent, an estimated error rate of 15 percent, and a confidence level of 95 percent. We selected a statistical
sample because we wanted the ability to estimate the number of forms in the population that were unavailable at the
Centers.
4
  We chose judgment samples because we were not going to project our results. The IRS informed us that
11,537 (70 percent) of the 16,543 public libraries nationwide voluntarily stock tax forms. The number of libraries
nationwide was obtained from the American Library Association. The IRS informed us that it sent tax forms to
10,426 of the more than 27,000 United States Post Offices nationwide. The number of post offices was obtained
from the United States Postal Service.
                                                                                                             Page 7
              Tax Forms and Publications Were Generally Obtainable, but the
                   Time Required to Acquire Forms Could Be Reduced



      A. The hours of operation.
      B. Whether all the mandatory tax forms were in stock.
      C. Which of the optional forms they carried.
IV.   Called the IRS toll-free telephone number and determined:
      A. The time needed to reach a customer service representative.
      B. Whether tax forms and publications could be obtained over the telephone.
      C. The time needed to order and receive five forms and five publications or instructions.
V.    Reviewed the IRS.gov web site to determine:
      A. The ease or difficulty involved in searching for and ordering tax forms and
         publications from the site.
      B. The time needed to order and receive five forms and five publications or instructions.
VI.   Compiled the results of the visits to the IRS Centers, experiences with IRS telephone
      customer service representatives, and visits to libraries/post offices to determine whether
      forms and publications needed by taxpayers were readily available.




                                                                                           Page 8
               Tax Forms and Publications Were Generally Obtainable, but the
                    Time Required to Acquire Forms Could Be Reduced



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Andersen, Director
Larry Madsen, Audit Manager
John Chiappino, Lead Auditor
Marge Filippelli, Senior Auditor
Philip Peyser, Senior Auditor




                                                                                       Page 9
               Tax Forms and Publications Were Generally Obtainable, but the
                    Time Required to Acquire Forms Could Be Reduced



                                                                            Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education, Wage and Investment
Division SE:W:CAR
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Distribution, Wage and Investment Division SE:W:CAR:MP:D
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Wage and Investment Division SE:W




                                                                                   Page 10
   Tax Forms and Publications Were Generally Obtainable, but the
        Time Required to Acquire Forms Could Be Reduced



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 11
Tax Forms and Publications Were Generally Obtainable, but the
     Time Required to Acquire Forms Could Be Reduced




                                                        Page 12
Tax Forms and Publications Were Generally Obtainable, but the
     Time Required to Acquire Forms Could Be Reduced




                                                        Page 13
Tax Forms and Publications Were Generally Obtainable, but the
     Time Required to Acquire Forms Could Be Reduced




                                                        Page 14
Tax Forms and Publications Were Generally Obtainable, but the
     Time Required to Acquire Forms Could Be Reduced




                                                        Page 15
